                                                                         MINE SAFETY AND HEALTH
U.S. Department of Labor                                                 ADMINISTRATION

                           Office of Inspector General—Office of Audit




                                                                         MSHA SHOULD CONTINUE TO REASSESS
                                                                         AND MAKE IMPROVEMENTS TO ITS ROLE IN
                                                                         MINE RESCUE CONTESTS




                                                                                          Date Issued:   September 30, 2013
                                                                                       Report Number:      05-13-004-06-001
U.S. Department of Labor                                    September 2013
Office of Inspector General
Office of Audit                                             MSHA SHOULD CONTINUE TO REASSESS
                                                            AND IMPROVE ITS ROLE IN MINE RESCUE
                                                            CONTESTS
BRIEFLY…
Highlights of Report Number 05-13-004-06-001, issued        WHAT OIG FOUND
to the Assistant Secretary for Mine Safety and Health.      MSHA did not fully comply with a Federal Travel
                                                            Regulation to minimize costs for its 2006-2010 MNM
WHY READ THE REPORT                                         contests by performing required cost comparisons for at
MSHA held national mine rescue contests for each of         least 3 sites, resulting in its failure to identify an
its two major program areas, Coal and Metal and             estimated $100,000 in potential savings. It also spent
Non-Metal (MNM), every two years. These contests            $33,438 on unnecessary clothing and $13,800 for
have been the backbone for training and preparing           unallowable commemorative coins.
rescue teams to conduct rescue operations. MSHA held
its last five MNM contests in Reno, NV, and its last coal   MSHA also violated the Federal Acquisition Regulation
contest in Columbus, OH.                                    by not justifying its use of sole-source contracts with the
                                                            Reno-Sparks Convention and Visitors Authority
MSHA elected to host and pay for significant parts of       (RSCVA) in 2006 and 2010. It also entered into
the contests even though it is not legally required to do   contracts with the RSCVA and the Peppermill hotel that
so. MSHA’s involvement is permissible given its             included impermissible indemnification clauses. MSHA
mission.                                                    also guaranteed rooms for mine rescue teams with the
                                                            Peppermill hotel in 2012. The contest was cancelled
WHY OIG CONDUCTED THE AUDIT                                 and the Peppermill may be entitled to collect a penalty
We received a series of complaints regarding MSHA’s         of $194,910. The majority of the penalty would be
MNM mine rescue contests. The complaints alleged            related to lodging costs associated with nongovernment
MSHA: (a) wasted taxpayer dollars with the contests;        personnel.
(b) wasted taxpayer dollars by holding planning
meetings on-site instead of utilizing teleconferencing;     Additionally, MSHA lacked specific statutory authority to
(c) wasted taxpayer dollars by purchasing matching          charge and retain fees for its coal contests, and it may
shirts for each day of the contests; and (d)                have violated the Miscellaneous Receipts Act by
inappropriately received upgraded and free hotel            collecting fees and not depositing them with the
rooms, lavish receptions, after-hours parties, limousine    Treasury, but instead directing the funds be deposited
rides, and free meals.                                      into a non-government bank account and used to cover
                                                            contest expenses. MSHA may be required to deposit
Additionally, MSHA informed us it had concerns about        with the Treasury some or all of the funds it spent and
its use of a non-government bank account to hold coal       also the approximately $326,000 that remained unspent
contest fees. Therefore, we performed work to answer        after the 2011 coal contest.
the following questions:
                                                            WHAT OIG RECOMMENDED
    1. Did MSHA comply with federal laws and                We recommended the Assistant Secretary for Mine
       regulations and safeguard federal funds when         Safety and Health: (1) involve its contracting officials
       providing MNM Mine Rescue Contests in fiscal         with all procurement actions from the outset; (2) ensure
       years (FY) 2006, 2008 and 2010, and in               the contests are operated in compliance with laws and
       planning the proposed 2012 contest?                  regulations or relinquish MSHA’s role as organizer of
                                                            the contests; (3) ensure the $326,308 balance in the
    2. Did MSHA comply with applicable laws and             coal fund is secured until a decision has been made as
       regulations when it charged fees for the coal        to the disposition of those funds; and (4) request a
       and MNM contests, directed the coal contest          decision from the Government Accountability Office on
       funds be deposited in non-government                 (a) whether MSHA could legally charge and retain fees
       accounts, and used the coal and MNM contest          for its contests pursuant to the Independent Offices
       funds to pay for contest expenditures?               Appropriations Act, or any other statute, and (b) the
                                                            disposition of the existing coal fund balance.
READ THE FULL REPORT
To view the report, including the scope, methodology,       The Assistant Secretary agreed with our
and full agency response, go to:                            recommendations and noted MSHA has already taken
http://www.oig.dol.gov/public/reports/oa/2013/05-13-        significant steps to address recommendations 1 and 2.
004-06-001.pdf.
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      MSHA Should Reassess Its Role in MRCs
                                Report No. 05-13-004-06-001
                                                     U. S. Department of Labor – Office of Inspector General



Table of Contents
Assistant Inspector General’s Report ......................................................................... 1

Results In Brief .............................................................................................................. 3

Objective 1 — Did MSHA comply with federal laws and regulations and safeguard
federal funds when providing MNM Mine Rescue Contests in FYs 2006, 2008,
2010, and in planning the proposed 2012 contest? ................................................... 8
         MSHA did not comply with federal laws and regulations or adequately
           safeguard federal funds when planning and organizing MNM contests.
         Finding 1 — MSHA failed to adequately minimize MNM contest costs,
            incurred unallowable costs, and failed to adequately account for
            contest fees ..................................................................................................... 8
         Finding 2 — MSHA violated the FAR and used poor contracting practices
            when entering into contracts ......................................................................... 12
Objective 2 — Did MSHA comply with federal laws and regulations when it
charged fees for its coal and MNM contests, directed the coal contest funds be
deposited in non-government accounts and used the coal and MNM contest
funds to pay for contest expenditures? .................................................................... 15
         MSHA may not have complied with federal laws when it charged fees for
           its coal contests, deposited those fees in non-government accounts
           and used them to pay contest expenditures.
         Finding 3 — MSHA lacked specific statutory authority to charge and retain
            fees for its coal contests, and as a result may have violated the MRA
            and possibly the Antideficiency Act ............................................................... 15
Conclusion................................................................................................................... 17

Recommendations ...................................................................................................... 17

Exhibit
         Exhibit 1 Cost Comparisons – MSHA Travel Costs (2006—2010 MNM
            Contests) ....................................................................................................... 21
Appendices
         Appendix A Background ..................................................................................... 25
         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 29
         Appendix C Acronyms and Abbreviations .......................................................... 33
         Appendix D Interim Report and MSHA Response .............................................. 35
         Appendix E MSHA Response to Draft Report .................................................... 45
         Appendix F Acknowledgements ......................................................................... 49



                                                                        MSHA Should Reassess Its Role in MRCs
                                                                                  Report No. 05-13-004-06-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      MSHA Should Reassess Its Role in MRCs
                                Report No. 05-13-004-06-001
                                    U. S. Department of Labor – Office of Inspector General


U.S. Department of Labor                Office of Inspector General
                                        Washington, D.C. 20210




September 30, 2013

                        Assistant Inspector General’s Report



Joseph A. Main
Assistant Secretary
Mine Safety and Health
1100 Wilson Boulevard
Arlington, Virginia 22209

The Mine Safety and Health Administration’s (MSHA) mission is to prevent disease,
death, and injury from mining and to promote safe and healthful workplaces for the
nation’s miners. To assist in achieving its mission, MSHA promotes miner training and
encourages adaptation of new technologies and improved workplace practices.

The federal government has been the primary entity overseeing mine rescue contests
(contest) since 1911, when the first contest was held by the U.S. Bureau of Mines.
These contests have been the backbone for training and preparing rescue teams to
conduct rescue operations. They are used to both train and test the skills and
competency of the teams, which are made up of volunteers who risk their lives in some
of the most treacherous and life threatening conditions. Rescue team members must be
highly trained to respond to a range of situations, such as rescuing miners who might be
stranded miles underground or stabilizing mines after fires, explosions, or roof
collapses.

As a training tool to improve the skills required to respond to a mine rescue emergency
and strengthen cooperation between mining companies, equipment manufacturers, and
federal and state agencies, MSHA conducts mine rescue contests for each of its two
major program areas (Coal and Metal and Non-Metal (MNM)) every other year. MSHA
held its five most recent MNM National Mine Rescue Contests (MNM contests) in Reno,
NV, and planned to hold its 2012 MNM contest there. MSHA held its most recent coal
contest in Columbus, OH, in 2011.

The Office of Inspector General (OIG) received three hotline complaints concerning the
MNM contests. Additionally, during the MNM contest audit, MSHA informed the OIG
that it had concerns about its use of a non-government bank account to hold coal
contest fees. We conducted an audit to answer the following questions:

   1. Did MSHA comply with federal laws and regulations and safeguard federal
      funds when providing MNM Mine Rescue Contests in fiscal years (FY)
      2006, 2008, 2010, and in planning the proposed 2012 contest?
                                                    MSHA Should Reassess Its Role in MRCs
                                            1                 Report No. 05-13-004-06-001
                                                U. S. Department of Labor – Office of Inspector General


    2. Did MSHA comply with applicable laws and regulations when it charged
       fees for the coal and MNM contests, directed the coal contest funds be
       deposited in non-government accounts, and used the coal and MNM
       contest funds to pay for contest expenditures?

Our audit covered MSHA’s controls when planning and providing the MNM contests
in FYs 2006, 2008, 2010, and 2012. 1 We reviewed and tested almost $1 million of
expenses related to the MNM contests and reviewed applicable contracts, letters of
agreement, purchase orders, invoices, and travel vouchers. We also performed
analytical procedures related to the MNM contests’ location and travel costs
between the selected site of Reno, NV, and two other cities, Dallas, TX, and
Denver, CO. Additionally, we interviewed key MSHA officials and officials with
2 hotels MSHA contracted with to provide lodging for contest participants.

For our second objective, we based our assessment on relevant criteria and guidance;
our review of the 2006-2010 MNM contests; and MSHA-supplied narratives, facts, and
documentation related to its coal contest fund. Our review of the coal contest fund
included available information from the inception of the fund in 1985 to 2011, the year of
the latest coal contest.

On September 28, 2012, we issued an interim report (number 05-12-004-06-001)
related to our work on MSHA’s planning for the 2012 MNM contest. Our report
recommended that the Assistant Secretary for Mine Safety and Health: (1) design
and implement controls to ensure all conferences are properly planned and no
commitment of resources is made prior to approval of required officials; (2) partner
with its procurement team from the outset to ensure contracts contain all appropriate
clauses and exclude impermissible clauses; (3) determine contest fees and properly
match fee amounts to expected costs to the Government; (4) review and approve all
expected costs before they are incurred; and (5) account for all funds, whether
derived from contest fees or MSHA funds, expended in connection with contests.
MSHA has already taken appropriate actions to close all of the above
recommendations. MSHA also took steps to limit its role in the contests. The
2013 MNM contest was hosted by the Nevada Mining Association and according to
MSHA, it sent nearly half the number of employees to this contest than it did to the
2010 contest. See Appendix D for the entire interim report and MHSA’s response.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our audit objectives, scope, methodology, and criteria are detailed in
Appendix B.

1
  MSHA cancelled its 2012 Mine Rescue Contest before it collected any fees; therefore, our scope was limited to
MSHA’s planning efforts for that Contest. In addition, some records for the 2006 Contest were unavailable because
the retention time for those records had expired.
                                                                MSHA Should Reassess Its Role in MRCs
                                                         2                Report No. 05-13-004-06-001
                                                   U. S. Department of Labor – Office of Inspector General


RESULTS IN BRIEF

MSHA elected to plan, organize, host, and pay for significant parts of the contests even
though it is not legally required to do so. Although MSHA’s involvement is permissible
given its mission, once MSHA elected to plan and organize these contests, it needed to
comply with all federal laws and regulations, and implement adequate internal controls.
Our audit found that MSHA failed to do so because:

       •   MSHA did not fully comply with the Federal Travel Regulation (FTR)
           requirement to minimize all MNM contest costs, incurred unallowable
           costs, and did not adequately account for contest fees.

       •   MSHA did not follow Federal Acquisition Regulation (FAR) requirements
           when contracting with the Reno-Sparks Convention and Visitors Authority
           (RSCVA) for the 2006 and 2010 MNM contests and entered into RSCVA
           and Peppermill Hotel contracts that included impermissible clauses.
           MSHA also used inappropriate contracting practices when signing hotel
           contracts for the 2010 and 2012 contests.

       •   MSHA lacked specific statutory authority to charge and retain fees for its
           coal contests and may have violated the Miscellaneous Receipts Act
           (MRA) and possibly the Antideficiency Act when it collected fees from coal
           mine rescue teams and vendors and used those funds to cover costs of
           the contests.

As a result, MSHA spent excessive, unnecessary, and unallowable funds, and
unnecessarily exposed itself to liability.

Failed to Minimize Costs, Incurred Unallowable Costs, and Did Not Account for Fees

MSHA spent at least $962,000 planning and operating the 2006, 2008, 2010, and
2012 MNM contests, including $142,106 for floor space and setup.

MSHA failed to comply with FTR §301-74—Conference Planning by not comparing
costs for at least 3 sites for the MNM contests and thereby potentially identifying
opportunities to reduce costs. We compared travel costs for 3 cities: Dallas, TX, Denver,
CO, and Reno, NV, the actual site of the contests. We chose those 3 cities because
MSHA used them in an incomplete cost comparison it performed when planning the
2012 contest. 2 We estimate that holding the contests in Dallas may have saved MSHA
more than $100,000 in travel costs for the 2006-2010 contests.

Additionally, MSHA failed to minimize costs when it spent $33,438 on unnecessary
clothing costs; and $13,800 on commemorative coins, an unallowable expense.


2
    MSHA compared the cost of hotels and M&IE expenses for each of these sites, but not the cost of airfare.
                                                                   MSHA Should Reassess Its Role in MRCs
                                                           3                 Report No. 05-13-004-06-001
                                     U. S. Department of Labor – Office of Inspector General


Also, as we reported in our interim report, MSHA failed to document its fee structure or
account for the fees once they were transferred to the Silver Legacy hotel.

Poor Contracting Practices

MSHA did not comply with FAR Subpart 6.3—Other Than Full and Open Competition
when contracting with the RSCVA for space during the 2006 and 2010 Contests. MSHA
used a sole-source contract with the RSCVA for both contests, but did not justify its use
by preparing the required Justification for Other Than Full and Open Competition form.
In addition, MSHA entered into what appeared to be standard hotel contracts with the
RSCVA for those contracts and one with the Peppermill hotel related to the 2012 MNM
contest. The 2006 RSCVA and Peppermill contracts included impermissible
indemnification clauses, which would violate the Antideficiency Act by agreeing to an
unlimited and indefinite liability.

MSHA also entered into hotel contracts that guaranteed rooms for nonfederal contest
participants. The contracts included cancellation penalties for the 2010 and 2012 MNM
contests. The 2010 contract with the Silver Legacy hotel exposed the government to
potential liability of more than $163,000, and the 2012 contract with the Peppermill hotel
exposed the government to more than $194,000 in potential liability, most for costs
MSHA did not intend to use appropriated funds to pay: the cost of rooms for
nongovernment contest participants.

These deficiencies were caused by a lack of management oversight related to contest
planning, lack of internal policies to ensure the planning met federal requirements, and
the planning committee’s failure to incorporate the procurement function early in the
planning process. As a result, MSHA spent excessive, unnecessary, and unallowable
funds on the planning and conduct of the contests, and exposed the agency to
significant legal and financial liabilities.

Lack of Specific Statutory Authority to Charge and Retain Coal Contest Fees

MSHA lacked specific statutory authority to charge and retain coal contest fees, which
were used, in part, to pay for the actual costs of the contest, and MSHA may have
violated the MRA and possibly the Antideficiency Act when it collected fees and retained
and used those funds to cover costs of the coal contests. The MRA requires an official
or agent of the government who receives money for the government from any source to
deposit the money with the U.S. Treasury without deduction. MSHA charged a fee for
the coal contests, and utilized a non-government entity to operate its coal contest fund
account, which as of the end of the 2011 coal contest maintained a balance of
approximately $326,000.

It is unclear if the Independent Offices Appropriation Act provides authority to charge
fees under the circumstances related to these contests. Further, the MNM fees, and
some of the coal contest fees, may be allowable pursuant to a Department of Justice,


                                                  MSHA Should Reassess Its Role in MRCs
                                            4               Report No. 05-13-004-06-001
                                               U. S. Department of Labor – Office of Inspector General


Office of Legal Counsel opinion, which concludes that the MRA may not apply when
fees are paid to a contractor and used to pay for items of “personal convenience.”

In addition to the recommendations we made in our interim report, we recommend the
Assistant Secretary for Mine Safety and Health: (1) issue guidance requiring that
MSHA’s contracting officials are involved with all procurement actions from the outset
and throughout the process; (2) further develop policies and controls that ensure the
contests are operated in compliance with laws and regulations or relinquish MSHA’s
role as organizer and host of all future contests; (3) ensure the $326,308 balance in the
coal fund is secured and none of the funds are spent until a decision has been made as
to the appropriate disposition of those funds; and (4) request a decision from the
Government Accountability Office (GAO) on (a) whether MSHA could legally charge and
retain fees for its mine rescue contests pursuant to the Independent Offices
Appropriations Act, or any other statute, and (b) the appropriate disposition of the
existing coal fund balance.

MSHA’S RESPONSE

In response to the draft report, The Assistant Secretary agreed with our
recommendations. The Assistant Secretary noted MSHA has already taken significant
steps to address recommendations 1 and 2 as a result of similar recommendations
contained in the OIG’s interim report. The Assistant Secretary also stated MSHA will
take appropriate steps in deciding how best to secure the coal funds and will seek an
opinion from GAO. The Assistant Secretary’s entire response appears in Appendix E.


RESULTS AND FINDINGS

MSHA and its predecessor agencies have long been involved in mine rescue contests.
Its involvement in coal mine rescue contests began in the early 1900s and its
involvement in the Metal and Nonmetal (MNM) National Mine Rescue Contests began
in the 1970s. The contests served both as a training tool to improve the skills required to
respond to a mine emergency and to strengthen cooperation within the broader mining
community.

The MINER ACT included a requirement for coal mine rescue teams to participate
annually in two “local mine rescue contests.”3 The National contests fulfill a part of this
requirement, and at other times, mine operators organize local contests through trade
associations or state agencies. To meet the requirements of a local coal mine rescue
contest, the contest must use MSHA recognized rules, but MSHA is not required to
organize, host, participate or pay for any portion of the contests.

Beginning in 1985, MSHA began to charge fees for its coal contests. MSHA collected
the fees and forwarded them to a nongovernment organization for deposit in its bank

3
 The local mine rescue contests requirement is found in Section 4 of the MINER ACT (P.L. 109-236 (June 15, 2006))
and is implemented by 30 CFR §49.20 (a)(2) and §49.60.
                                                               MSHA Should Reassess Its Role in MRCs
                                                       5                 Report No. 05-13-004-06-001
                                               U. S. Department of Labor – Office of Inspector General


account. MSHA officials maintained control of the funds, directing how and when to
disburse the funds. Other than changes to the organization acting as the fund holder,
MSHA maintained this basic system through its latest contest, which was held in
Columbus, OH, in 2011.

There is no similar requirement for MNM rescue teams to attend contests. Yet, MSHA
chose to plan, organize, host, and pay for significant parts of its MNM contests. The
contests were significant logistical events that required a facility large enough to provide
both isolated areas for written exams and a space large and open enough to construct
mock mines. The contests were attended by an average of 36 mine rescue teams,
spanned 3 days, and were capped off with awards banquets.

MSHA, in cooperation with a planning committee comprised of MSHA and industry
officials, planned the MNM contests. MSHA sent more than 100 employees to each of
the contests, but according to MSHA, in an effort to reduce costs for the 2010 contest,
officials combined 2 contest events into 1 and thereby reduced the number of MSHA
employees attending the event from 155 to 125. MSHA employees and a small number
of volunteers filled all the roles MSHA considered necessary to operate the contests. In
addition to administering the events, MSHA performed a variety of tasks, such as
judging and scoring contest events, proctoring written exams, and maintaining mock
mines. MSHA showed its willingness to take a reduced role in the contests when it
allowed the Nevada Mining Association to host the 2013 MNM contest. The contest was
held in Reno, NV, July 30—August 1, 2013, and according to MSHA, it sent less than
70 employees to the contest and relied on volunteers from industry and other
stakeholders to assist with the administration of the contest.

MNM Contest Fees and Hotel Services

MSHA charged teams and vendors a registration fee. The team registration fee ranged
from $500 per team in 2006 to $750 in 2010. Vendors were charged $1,000 for their
participation. The team fees included 10 awards banquet tickets. MSHA staff were
expected to attend the awards banquet, but had to use personal funds to purchase their
own tickets at a cost ranging from $31 per ticket in 2006 to $40 per ticket in 2010.
MSHA directed that checks for fees and banquet tickets be made payable to the Silver
Legacy Hotel. MSHA collected the checks and mailed them in installments to the hotel.
The hotel credited an MSHA event account for the fees and ticket purchases and used
the funds to cover the cost of receptions and an awards banquet for each contest. None
of the fees were used to cover MSHA’s costs for executing the contests.

MSHA did not account for the registration and banquet ticket funds, including how they
were spent once they were transferred to the Silver Legacy Hotel. The Silver Legacy
provided us with accounting records and banquet checks4 for the 2008 and 2010 MNM
contests. The hotel’s records documented the total amount credited to the MSHA event

4
  The hotel banquet checks were used to account for food, beverage, audio/visual and entertainment services and
the value placed on the services. The checks were not invoices and may have included services that were provided
complimentarily.
                                                               MSHA Should Reassess Its Role in MRCs
                                                        6                Report No. 05-13-004-06-001
                                     U. S. Department of Labor – Office of Inspector General


account and the services that were charged against the account for banquet-type
services. Most of the costs were for food and beverages, but some were for audio-visual
rental and entertainment for these same events. In 2008, $2,611 of the $69,985
charged to the account was for audio-visual rental, and in 2010, $4,385 of the $66,611
included audio-visual or entertainment costs. According to the Silver Legacy records,
the total amount of services provided for each of the two years exceeded the amounts
credited to the MSHA account. Because the Silver Legacy did not tie specific receipts to
specific services, it is impossible to be certain what events were paid for using the fees
and what services were complimentary. Hotel records for the 2008 contest show that
the event account was credited with $53,062 in deposits and the banquet expenses for
that contest totaled $69,985. The 2010 contest records show $55,550 was credited to
the event account and the banquet expenses for that contest totaled $66,611. Silver
Legacy Hotel officials explained that the hotel engages these conferences planning to
credit the event account certain amounts based on capacity, but they were also willing
to further subsidize some of these events to keep their clients satisfied.

MNM Mine Rescue Complaint Allegations

As previously mentioned, our audit was initiated as a result of three similar complaints
related to the MNM contests. We later received additional complaints that included
allegations regarding the contests. The complaints alleged MSHA: (a) wasted taxpayer
dollars by holding contests it is not required by law to hold; (b) wasted taxpayer dollars
by holding planning meetings on-site instead of utilizing teleconferencing; (c) wasted
taxpayer dollars by purchasing matching shirts for its employees for each day of its
contests; and (d) received upgraded and free hotel rooms, lavish receptions, after-hours
parties, limousine rides, and free meals.

We found MSHA was not required to hold the contests, nor did it do enough to minimize
the costs of the MNM contests. Additionally, MSHA made unnecessary purchases of
matching shirts for its employees to wear at the contests. MSHA provided us with
reasonable explanations for holding on-site planning meetings. The total cost for
planning meetings for four contests amounted to about $113,000, or an average of
$28,000 per contest, an amount we did not deem excessive.

We did not find that MSHA employees received inappropriate complimentary rooms or
room upgrades. The Silver Legacy contracts provided for 32 no-cost room upgrades at
each of its MNM contests, to be shared between MSHA and the mine rescue teams.
Federal Travel Regulation (FTR) §301-53.3(b) generally allows for such benefits as long
as they are used for official government business. The hotel did provide receptions at
the contests that were either paid for using registration fees or provided free of charge
by the Silver Legacy. The receptions were primarily for the mine rescue teams and
consisted of 2 free drink tickets and snacks. We did not find any evidence that the hotel
sponsored any after-hours parties or provided free meals to MSHA officials. The Silver
Legacy did provide complimentary shuttle service to and from the airport to all of its
guests, which may have included the use of a limousine if one was available.


                                                  MSHA Should Reassess Its Role in MRCs
                                            7               Report No. 05-13-004-06-001
                                     U. S. Department of Labor – Office of Inspector General


Objective 1 — Did MSHA comply with federal laws and regulations and safeguard
              federal funds when providing MNM Mine Rescue Contests in
              FYs 2006, 2008, 2010, and in planning the proposed 2012 contest?

       MSHA did not comply with federal laws and regulations or adequately safeguard
       federal funds when planning and organizing MNM contests.

MSHA elected to plan and organize the contests even though it was not required to do
so. Although MSHA’s involvement in the contests is consistent with its mission, once
MSHA elected to plan and organize the contests, it needed to comply with all federal
laws and regulations, and implement adequate internal controls. We found:

   •   MSHA did not fully comply with federal requirements to minimize all MNM contest
       costs, incurred unallowable costs, failed to obtain prior approval for its
       2012 contest, and did not document its fee structure or account for the fees.

   •   MSHA did not comply with FAR requirements when contracting with the
       Reno-Sparks Convention and Visitors Authority (RSCVA) for the 2006 and 2010
       MNM contests and entered into RSCVA and Peppermill Hotel contracts that
       included impermissible clauses. MSHA also demonstrated poor contracting
       practices when signing hotel contracts for the 2010 and 2012 contests.

As a result, MSHA spent excessive, unnecessary, and unallowable funds, and
unnecessarily exposed the agency to liability.

Finding 1 — MSHA failed to adequately minimize MNM contest costs, incurred
unallowable costs, and failed to adequately account for contest fees

MSHA did not comply with federal requirements to perform cost comparisons when
planning its MNM contests and did not minimize all costs for 2006-2010 contests.
Notwithstanding the fact that it was under no legal obligation to do so, MSHA historically
agreed to pay some contests costs, for items such as floor space and setup, in an effort
to keep fees reasonable, thereby encouraging more teams to participate.

In total, MSHA spent at least $962,047 planning and operating the 2006-2012 MNM
contests. Details of the costs follow:




                                                  MSHA Should Reassess Its Role in MRCs
                                            8               Report No. 05-13-004-06-001
                                                U. S. Department of Labor – Office of Inspector General


           Table 1: Total Federal MNM Contest Expenditures
           Cost                         2006         2008                       2010               2012
           Contest travel           $172,561     $233,622                   $205,024
           Convention Center          24,000       27,360                     31,190
           Setup                      14,580       22,545                     22,431
           Trophies                    4,740       17,116                      1,600
           Clothing                   13,087       10,842                      9,509
           Coins                       7,800        6,000
           Banquet equipment                                                    3,312
                                            5
           Planning travel            7,544        34,742                      46,206          $24,993
           Video                      21,243
           Totals                   $265,555     $352,227                   $319,272           $24,993

We reviewed and tested almost $1 million in expenses related to the MNM contests
to determine if costs were necessary, reasonable, allowable, and adequately
supported. This included travel vouchers for 419 MSHA personnel who attended the
contests and 107 travel vouchers for the 20 planning meetings that MSHA held.
We found that MSHA did not perform required cost comparisons for its MNM contests.
As a result, we found its travel costs were not always reasonable. Additionally, MSHA
spent $33,438 for clothing that was not necessary, and $13,800 for commemorative
coins that were not an allowable cost.

MSHA Did Not Perform Required Cost Comparisons

MSHA did not perform cost comparisons as required by the FTR6 when planning the
2006-2010 MNM contests. The FTR7 requires that conference planners identify
opportunities to reduce costs in their selection of a particular conference location and
exercise strict responsibility to minimize costs. An adequate cost comparison should
include, but not be limited to, the following: (1) adequate lodging at the established per
diem rates, (2) overall convenience of the conference location, and (3) commuting or
travel distance of attendees.

We performed a cost comparison between Reno (the selected site) and two other cities:
Dallas and Denver for the 2006-2010 contests. We chose Dallas and Denver because
MSHA had performed a limited cost comparison using these cities for the cancelled
2012 MNM contest. MSHA’s cost comparisons included hotel, space costs, and M&IE
expenses, but did not include airfare. Our cost comparisons included airfare, lodging at
allowable government rates, published government allowances for meals and incidental
expenses, and local transportation costs. We found that Dallas was the most cost
effective choice for the 2006-2010 contests. In total, we estimate MSHA may have
saved the government more than $100,000 in travel costs had it selected Dallas as the
site for the contests (see Exhibit 1). MSHA correctly argued that its contest planners

5
  We were not able to determine the total travel cost for the 2006 planning meetings because records were no longer
retained.
6
  FTR §301-74.19 states in part “…you must maintain a record of the cost of each alternative conference site
considered. You must consider at least three sites….”
7
  See FTR §301-74.1(c), §301-74.4, and §301-74.5
                                                                MSHA Should Reassess Its Role in MRCs
                                                         9                Report No. 05-13-004-06-001
                                      U. S. Department of Labor – Office of Inspector General


were able to negotiate considerable discounts with the Silver Legacy hotel from the
published lodging rates. MSHA may have had success negotiating similar discounts
with hotels in Denver and Dallas, but the actual cost savings may have been less than
our estimate. MSHA also argued that its 2012 comparison showed cost savings of
approximately $20,000 for convention rental costs due to a significant discount offered
by the RSCVA; however, when we reviewed the Dallas documentation, we found a
similar concession for the convention center and determined it was unlikely there would
have been a material cost savings for the convention center between those two sites.

MSHA stated one reason it selected Reno for the MNM contests was its proximity to the
mine rescue teams. However, when we compared the distance of the teams to each of
the three cities, we found Dallas and Denver were actually more centrally located than
Reno. In fact, the average mine rescue team was 169 and 417 miles closer to Dallas
and Denver, respectively, than to Reno. Additionally, MSHA stated there were other
factors which entered into its decision to choose Reno over other locations, including
the proximity to the University of Nevada Reno Mining School and the assertion that this
location was preferred by its mine industry planning partners. If there were overriding
factors besides costs, MSHA should have provided written justification for the decision
to hold the contests in Reno when other less expensive locations may have been
available.

MSHA did not believe its mine rescue contests fit the definition of “conferences” under
the FTR that are subject to FTR §301-74. MSHA believes the contests were more
appropriately classified in the FTR under “mission (Operational)” and “training.” The
definitions for these travel purposes are included in FTR §301 Appendix C. The
“Mission (Operation)” defines activities that are part of an employee’s day-to-day
operation activities. We do not agree that the contests met this definition. The definition
for the “Training” stated in part:

       …the process of providing for and making available to an employee, and
       placing or enrolling the employee in a planned, prepared, and coordinated
       program, course, curriculum, subject, system, or routine of instruction or
       education…which will improve individual and organizational performance
       and assist in achieving the agency’s mission and performance goals.

We do not believe the mine rescue contests met this definition. Although it is true that
training was provided at the contests, the training was held primarily for the benefit of
non-federal attendees. The definition included in FTR §301 Appendix E for a
“Conference” states: “[a] meeting, retreat, seminar, symposium or event that involves
attendee travel.” We believe MSHA’s mine rescue contests fall within this definition. The
contests, which were held in a convention center and involved receptions and an
awards banquet, were primarily a competition designed to train and sharpen the skills of
non-federal attendees and also to strengthen cooperation between mining companies,
equipment manufacturers, and federal and state agencies to enhance mine rescue
preparedness.


                                                   MSHA Should Reassess Its Role in MRCs
                                            10               Report No. 05-13-004-06-001
                                               U. S. Department of Labor – Office of Inspector General


MSHA Did Not Adequately Minimize Contest Costs/Incurred Unallowable Costs

MSHA incurred unnecessary and unallowable costs for the 2006-2010 MNM contests
when it spent $33,438 on clothing and $13,800 on commemorative coins.

MSHA purchased 3 shirts (one for each day of competition) and hats/visors for every
official involved in operating the contests. The total cost for the clothing was more than
the $33,438 for the 2006-2010 contests. MSHA officials justified the clothing as
necessary to help differentiate contest officials from participants. MSHA did not
seriously consider more cost effective ways to accomplish this, such as reusable vests,
armbands, or different colored name tags. In our opinion, these costs were
unnecessary.

MSHA also purchased a total of 1,200 commemorative coins at a total cost of $13,800
to hand out at their 2006 and 2008 MNM contests. MSHA claimed these coins were
trophies (an allowable expense) but they were given as a memento of the event to
every person involved in the contests. Federal conference guidance 8 does not allow the
use of federal funds to purchase mementos.

MSHA Did Not Obtain Prior Approval for Its 2012 Contest Before It Entered into
Contracts, Did Not Document Its Fee Structure or Adequately Account for Contest
Funds

As we reported in our interim report, we found MSHA had entered into contracts
committing funds to its cancelled 2012 Contest prior to receiving DOL approval for the
event as required by an October 12, 2011, memorandum from the Deputy Secretary. It
should be noted, however, that MSHA had already begun planning for its 2012 MNM
contest prior to the issuance of the Deputy Secretary’s memorandum. Nonetheless,
MSHA should have obtained approval once the policy came into effect, and before
entering into contracts for the contest.

MSHA also did not document its fee structure methodology or fully account for the fee
and banquet ticket sale revenues after it transferred the funds to the Silver Legacy
Hotel. The fee amounts were estimates of what would be necessary to cover the costs
of a reception for the miners and an awards banquet. Once the funds were transferred
to the Silver Legacy, MSHA did not adequately account for how the funds were spent.
The contest organizers were involved in planning some of the events, but they never
requested documentation or made any effort to reconcile revenues with the services
provided. Because MSHA took possession of the fees collected and transferred them to
the Silver Legacy, MSHA accepted responsibility for the funds and should have
accounted for their use. We reviewed the hotel’s records and found the services
provided by the hotel exceeded the fee revenues for the 2008 and 2010 contests.
Records for the 2006 contest were no longer available for review.

8
  Appendix E to FTR Chapter 301—Suggested Guidance to Conference Planning, under the sub-heading Mementos,
states: “Appropriations are not available to purchase memento items for distribution to conference attendees as a
remembrance of the event….”
                                                               MSHA Should Reassess Its Role in MRCs
                                                       11                Report No. 05-13-004-06-001
                                                 U. S. Department of Labor – Office of Inspector General


In response to our interim report, MSHA implemented systems to help ensure it:
(a) complies with the Deputy Secretary’s memorandum; and (b) reviews, approves, and
accounts for expected costs of participating in contests. Additionally, MSHA stated it
does not have current authority to collect and retain contest fees, and that it will not
establish, collect, or handle fees associated with any mine rescue training contests. As
a result of MSHA’s actions, we have closed all five interim report recommendations.

Finding 2 — MSHA violated the FAR and used poor contracting practices when
entering into contracts

MSHA raised questions regarding whether or not it had a valid, signed contract with the
Peppermill hotel for the 2012 contest. According to MSHA, the contract, as executed,
may not have been valid. We disagree. We believe the contract was valid. The general
requirements for a binding contract with the United States are identical for both express
and implied contracts. 9 These are: (1) mutual intent to contract, (2) offer and
acceptance, (3) consideration, and (4) the government representative who entered into
or ratified the agreement had actual authority to bind the United States. MSHA’s
argument that the agreement was not valid appears to be based on its belief that MSHA
had no intent to contract in this instance.

We believe the evidence defies this assertion and supports the contention that MSHA
did intend to enter into a valid agreement. For example, the former contracting officer’s
name and title were printed by hand on the contract signature line. The same
contracting officer reviewed the signed contract and stated it looked like his printed
name, but he could not be sure and did not remember printing his name on the
document. However, we interviewed several individuals working with the contracting
officer on that contract, two of which believed the contracting officer mentioned signing
the contract and placing it under the door of MSHA’s MNM Management Officer. That
Management Officer remembered finding the signed contract and hand delivering it to
one of the MSHA contest organizers, who then emailed it from a valid MSHA email
address to the hotel. Peppermill officials countersigned the contract and emailed it back
to MSHA.

MSHA further demonstrated its intent to contract with the Peppermill when it stated it
had a signed agreement with the Peppermill in its memorandum to the Chief Financial
Officer requesting permission to hold the 2012 contest. It also advertised on its website
that the Peppermill was the host hotel for the 2012 MNM contest. The advertisement
included the agreed upon room rate and the room block code. Furthermore, the Director
of the Acquisitions and Management Division and the Acting Director of Administration
and Management at the time the contract was cancelled stated that, despite the
questions about the signature, it was their opinion that the contract was valid because
MSHA had treated it as a valid contract and held it out as such. To our knowledge, at no
time until this audit report did MSHA contest the validity of the contract.

9
 An express contract is one where all the elements and terms of the contract are specifically stated. An implied
contract is an agreement that is found to exist based on circumstances when to deny a contract would be unfair
and/or result in the unjust enrichment to one of the parties.
                                                                  MSHA Should Reassess Its Role in MRCs
                                                         12                 Report No. 05-13-004-06-001
                                                 U. S. Department of Labor – Office of Inspector General


Consequently, given the totality of facts and circumstances, we believe MSHA had a
valid contract, express or implied, with the Peppermill hotel. 10

MSHA violated the FAR and failed to use sound business practices when entering into
contracts for the 2006, 2010, and 2012 MNM contests. Specifically, MSHA violated the
FAR by using sole-source contracts when contracting with the RSCVA for space during
the 2006 and 2010 contests because it did not justify its use of the sole-source
contracts as required. Additionally, MSHA signed an RSCVA contract and, as reported
in our interim report, a Peppermill Hotel contract that included impermissible clauses.
MSHA also entered into hotel contracts containing cancellation penalties for the 2010
and 2012 contests. Consequently, MSHA violated federal regulations and opened the
agency to significant legal and financial liabilities.

MSHA Did Not Comply With the FAR When Contracting for Space

MSHA did not comply with the FAR 11 when contracting for space with the RSCVA for
the 2006 and 2010 MNM contests. MSHA used a sole-source contract for the 2006 and
2010 contracts, valued at $24,000 and $31,190, respectively. However, it failed to
properly justify the use of sole-source contracts by preparing the Justification for Other
Than Full and Open Competition form. The FAR requires a contracting officer not to
commence negotiations for a sole-source contract without providing for full and open
competition unless that contracting officer justifies the use of such actions in writing and
certifies the justification is accurate and complete. MSHA also contracted with the
RSCVA in 2008 and 2012, but in those instances MSHA justified the use of the
sole-source contracts consistent with federal regulations.

MSHA Entered Into Contracts that Included Impermissible Clauses

MSHA accepted RSCVA’s standard contract for the 2006 and 2010 MNM contests and
the Peppermill Hotel’s standard contract for the cancelled 2012 contest. The RSCVA
contracts for the 2006 and 2010 contests were the same, but MSHA signed the 2010
contract only after numerous clauses, including an indemnification clause, had been
stricken, yet signed the 2006 contract without any revisions. Also, MSHA accepted the
Peppermill Hotel’s standard contract for the canceled 2012 contest without any
revisions. Significantly, both the RSCVA and Peppermill contracts included an
impermissible indemnification clause. Such a clause is impermissible because it would
violate the Antideficiency Act 12 by agreeing to an unlimited and indefinite liability to the
government. The Antideficiency Act prohibits an officer or employee of the
U.S. Government from making or authorizing an expenditure or obligation that exceeds
the amount available in an appropriation or fund.



10
   The Office of the Solicitor provided the OIG with several countervailing arguments regarding the validity of this
contract. We have considered these arguments but are not persuaded that they support a change in our conclusion.
11
   FAR §6.303-1(a)
12
   31 United States Code, §1341(a)(1)
                                                                 MSHA Should Reassess Its Role in MRCs
                                                         13                Report No. 05-13-004-06-001
                                        U. S. Department of Labor – Office of Inspector General


MSHA Entered Into Hotel Contracts that Guaranteed Rooms for Non-Government
Contest Participants

MSHA entered into contracts with the Silver Legacy Hotel in 2010 and the Peppermill
Hotel in 2012, reserving rooms for both MSHA employees and non-government MNM
contest participants. Each contract included a cancellation penalty, the maximum of
which was equal to 100 percent of contracted guestroom revenue for event cancellation
occurring within 90 days of the event. The Peppermill Hotel contract allowed for a
waiver of the penalty if MSHA rescheduled an event of equal scope within 12 months of
the original event date. The maximum penalty for each contract was as follows:

      •   The 2010 contract included 1,920 room nights at a nightly rate of $85. The
          potential liability to the government was $163,200.

      •   The 2012 contract included 2,190 room nights at a nightly rate of $89. The
          potential liability to the government could be as much as $194,910.

While cancellation penalties that are not indefinite do not violate the Antideficiency Act,
they should be carefully reviewed prior to their inclusion in a government contract to
ensure that any such cancellation penalties are reasonable and appropriate under the
circumstances. The 2010 contest was held as scheduled, and therefore the cancellation
clause was of no effect. However, the 2012 contest was not cancelled in time to avoid a
potential penalty. As a result of MSHA’s decision to guarantee the rooms of both MSHA
and non-government contest participants, the Peppermill may be entitled to collect all or
a portion of the $194,910 penalty. Significantly, the majority of funds potentially owed to
the Peppermill Hotel were for costs that MSHA would not have used appropriated funds
to pay: the guestroom fees of non-government contest participants.

The deficiencies related to minimizing contract costs, charging and accounting for fees,
and contracting practices occurred because MSHA neither ensured there was proper
management oversight of the conference planning process13 nor developed and
established internal policies to ensure conference planning standards were met. 14
MSHA assigned overall responsibility for planning and directing the MNM contests to an
MSHA District Director. MSHA neither provided him training related to conference
planning or contracting nor internal policies to guide his efforts. Also, as we discussed in
our interim report, MSHA did not involve its procurement team early enough in the
planning process. As a result, MSHA spent excessive, unnecessary, and unallowable
funds on the planning and conducting of the contests, and unnecessarily exposed the
government to significant legal and financial liabilities.




13
     FTR §301-74.3(a)
14
     FTR §301-74.1(e)
                                                     MSHA Should Reassess Its Role in MRCs
                                              14               Report No. 05-13-004-06-001
                                     U. S. Department of Labor – Office of Inspector General


Objective 2 — Did MSHA comply with federal laws and regulations when it
              charged fees for its coal and MNM contests, directed the coal
              contest funds be deposited in non-government accounts and used
              the coal and MNM contest funds to pay for contest expenditures?

      MSHA may not have complied with federal laws when it charged fees for its coal
      contests, deposited those fees in non-government accounts, and used them to
      pay contest expenditures.

During the course of our audit of the MNM mine rescue contests, MSHA informed the
OIG about MSHA’s practice of assessing fees for its coal mine rescue contests and
depositing them in a non-government bank account. According to MSHA, this practice
originated in 1985, when MSHA began to charge fees for its coal contests. The fees
were not deposited in a government bank account, but rather sent to a non-government
entity to act as the fund holder. The name and location of the fund holder changed over
the years, but the process remained basically the same. MSHA collected the contest
fees and provided them to the fund holder in bulk. The fund holder would deposit the
fees in its bank account, use the funds to pay contest expenses at the direction of
MSHA, periodically account for the fund receipts and expenditures to MSHA, and
maintain any fund balance until the next contest.

MSHA also charged fees for its MNM contests. The fees were deposited in a Silver
Legacy Hotel event account and used to cover the costs of receptions and an awards
banquet at the hotel. Most of the costs were for food and beverages, but some were for
audio-visual rental and entertainment for these same events. In 2008, $2,611 of the
$69,985 charged to the account was for audio-visual rental, and in 2010, $4,385 of the
$66,611 included audio-visual or entertainment costs. The hotel did not act as agent to
pay contest expenditures and no balance remained in the event account at the end of
the contests.

Finding 3 — MSHA lacked specific statutory authority to charge and retain fees
for its coal contests, and as a result may have violated the MRA and possibly the
Antideficiency Act.

We found MSHA lacked specific statutory authority to charge and retain fees for its coal
contests, and that it may have violated the MRA by collecting the fees and depositing
them in non-government bank accounts. Additionally, MSHA may potentially have an
Antideficiency Act violation if it is found MSHA spent funds it should have deposited with
the Treasury and does not have sufficient funds currently available to deposit.

MSHA Lacked Specific Statutory Authority to Charge Fees for Its Coal Contests

Although we found the national mine rescue contests were official activities designed to
further MSHA’s statutory mission, MSHA did not have specific statutory authority to
charge fees for the coal contests. An agency must have specific statutory authority to


                                                  MSHA Should Reassess Its Role in MRCs
                                           15               Report No. 05-13-004-06-001
                                               U. S. Department of Labor – Office of Inspector General


charge and retain fees for meetings or programs. 15 Moreover, an agency cannot
augment its appropriations from outside sources without specific statutory authority. 16

Additionally, MSHA may not avoid compliance with these principles by arranging with an
outside entity to deposit the contest fees in a non-government bank account and pay for
contest expenses from that account. According to GAO, if an agency lacks specific
statutory authority to charge a fee at a conference and retain the proceeds then that
agency may not cure its lack of authority by engaging a contractor to do so. 17 However,
MSHA could possibly use the Independent Offices Appropriations Act (31 U.S.C. §9701,
the so-called “user fee” statute) to justify its charging of fees. The statute allows an
agency may charge a fee to recipients of “special benefits or services.” However, GAO
has not specifically addressed whether the user fee statute authorizes an agency to
charge a fee for its conferences.

MSHA Lacked Specific Statutory Authority to Retain Coal Contest Fees

Even if MSHA had the authority to charge fees for its coal contests, it did not have
specific statutory authority to retain them. MSHA charged various fees to coal mine
rescue teams and vendors who wished to participate in its contests. Although MSHA
directed that the fee checks be made payable to designated non-government entities,
MSHA maintained effective control of the funds by directing how the funds were spent.
According to MSHA, payments were not made from the coal fund without MSHA
reviewing and approving those costs.

Without specific statutory authority, the funds MSHA collected for the coal contests may
be subject to the MRA. 18 The MRA requires that:

        …an official or agent of the Government receiving money for the
        Government from any source shall deposit the money in the Treasury as
        soon as practicable without deduction for any charge or claim.

If the coal contest fees are found to be “money for the Government,” MSHA may be
required to deposit all the funds it collected and spent on contest-related expenditures
and also the approximately $326,000 that remained unspent after the 2011 coal contest.

MSHA May Have Violated the MRA and the Antideficiency Act

Because MSHA did not have specific statutory authority to retain and spend the fees it
charged for its coal contests, MSHA may have violated the MRA by directing the funds
be deposited in non-government bank accounts instead of the Treasury. For example,
MSHA collected more than $1.3 million for its last two coal contests, and spent more
than $1 million of those funds (see Table 2). If it is found that MSHA spent funds it
15
   Government Accountability Office (GAO) decision B-300826, National Institutes of Health – Food at Government-
Sponsored Conferences - March 3, 2005.
16                                                               rd
   See GAO, Principles of Federal Appropriations Law, p. 6-162 (3 Ed. 2006).
17
   GAO decision B-306663, Contractors Collecting Fees at Agency-Hosted Conferences, January 4, 2006.
18
   31 USC §3302(b)
                                                               MSHA Should Reassess Its Role in MRCs
                                                       16                Report No. 05-13-004-06-001
                                              U. S. Department of Labor – Office of Inspector General


should have deposited with the Treasury and MSHA does not have sufficient funds
currently available for deposit in the Treasury, MSHA may have violated the
Antideficiency Act.

               Table 2: Coal Contest Fees and Disbursements

               Description                             2009             2011             Total
               Beginning Fund Balance              $ 41,637         $177,193
               Contest Fees Deposits                713,643          620,176       $1,333,819
               Funds Available                      755,280          797,369
               Fee Expenditures                     578,087          471,061       $1,049,148
               Ending Fund Balance                 $177,193         $326,308

MSHA’s Use of Fees for Its MNM Contests May Not Have Violated the MRA

MSHA also charged fees for its MNM contests. The MNM fees were sent to the Silver
Legacy Hotel, which deposited them in an event account and used them to cover the
costs of receptions and banquets provided by the hotel. A Department of Justice, Office
of Legal Counsel opinion 19 concluded that the MRA may not apply when fees are paid
to a contractor and used to pay for items of personal convenience, since these fees
would not constitute money “for the government.” Relying on that opinion, the MNM fees
may be allowable, although we note that a small portion of these fees ($2,611 in 2008
and $4,385 in 2010) may have been used to cover audio-visual and entertainment
expenses, which may not be “personal conveniences”. MSHA should consult with GAO
to determine which, if any, contest fees (for both MNM and Coal) were not subject to the
MRA.

CONCLUSION

Significantly, the deficiencies noted in this report need not have occurred. MSHA is not
required to be involved in mine rescue contests, but because it chose to organize and
host the contests, it spent federal funds and exposed the government to legal liability
that the mining industry should have borne.

RECOMMENDATIONS

In addition to the recommendations we made in our interim report, we recommend the
Assistant Secretary for Mine Safety and Health:

     (1) Issue guidance requiring that MSHA’s contracting officials are involved in
         procurement actions from the outset and throughout the process.




19
  USDOJ, Office of Legal Counsel, Volume 30, Applicability of the Miscellaneous Receipts Act to Personal
Convenience Fees Paid to a Contractor by Attendees at Agency-Sponsored Conferences, November 22, 2006
                                                              MSHA Should Reassess Its Role in MRCs
                                                     17                 Report No. 05-13-004-06-001
                                     U. S. Department of Labor – Office of Inspector General


   (2) Further develop policies and controls that ensure the contests are operated in
       compliance with laws and regulations or relinquish MSHA’s role as organizer and
       host of all future contests.

   (3) Ensure the $326,308 balance in the coal fund is secured and none of the funds
       are spent until a decision has been made as to the appropriate disposition of
       those funds.

   (4) Request a decision from the GAO as to (a) whether MSHA could legally charge
       and retain fees for its mine rescue contests pursuant to the Independent Offices
       Appropriations Act, or any other statute, and (b) the appropriate disposition of the
       existing coal fund balance.

We appreciate the cooperation and courtesies that MSHA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix F.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                  MSHA Should Reassess Its Role in MRCs
                                            18              Report No. 05-13-004-06-001
          U. S. Department of Labor – Office of Inspector General




Exhibit




                       MSHA Should Reassess Its Role in MRCs
                19               Report No. 05-13-004-06-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      MSHA Should Reassess Its Role in MRCs
               20               Report No. 05-13-004-06-001
                                    U. S. Department of Labor – Office of Inspector General


                                                                                Exhibit 1
Cost Comparisons – MSHA Travel Costs (2006—2010 MNM Contests)

The population we used to compare travel costs included MSHA travelers who claimed
airfare costs to Reno, NV, and for which there were comparable Dallas, TX, and
Denver, CO, historical airfares available from GSA’s “City Pair” databases. We
calculated lodging and Meals and Incidental Expenses (M&IE) costs by multiplying our
population by GSA’s applicable lodging and M&IE rates. We assumed 4 nights lodging
and 4.5 days M&IE. We added local transportation costs for the Dallas and Denver
airports using published roundtrip shuttle rates ($36 in Dallas and $44 in Denver).
Finally, we subtracted the travel costs of travelers who lived in Dallas or Denver, as
applicable, since those travelers would not have incurred travel costs had the contest
been held in their respective cities. We did not compare the costs of event space
because such expenses are typically negotiated among the parties preceding each
event, and we could find no published historical database of costs.




2010 MNM Mine Rescue Contest Cost Comparison
                             Reno              Dallas                          Denver
                   (104 MSHA staff)   (96 MSHA staff)                  (96 MSHA staff)
Airfare                   $73,474*          $46,288**                        $48,550**
Lodging                     54,080            44,928                           60,672
Meals and
Incidental
Expenses                    23,868            30,672                             28,512
Local
Transportation
Cost                                            3,456                            4,224
Total                     $151,422          $125,344                          $141,958

Potential savings                                      $26,078                   $9,464




                                                 MSHA Should Reassess Its Role in MRCs
                                          21               Report No. 05-13-004-06-001
                                       U. S. Department of Labor – Office of Inspector General




2008 MNM Mine Rescue Contest Cost Comparison
                             Reno              Dallas                           Denver
                   (135 MSHA staff)  (119 MSHA staff)                   (127 MSHA staff)
Airfare                   $81,188*          $48,848**                            $62,522**
Lodging                     82,080            51,884                               71,120
Meals and
Incidental
Expenses                    29,768            31,595                                28,004
Local
Transportation
Cost                                            4,284                               5,588
Total                     $193,036          $136,611                             $167,234

Potential savings                                         $56,425                  $25,802




2006 MNM Mine Rescue Contest Cost Comparison
                             Reno              Dallas                            Denver
                   (108 MSHA staff)  (100 MSHA staff)                     (98 MSHA staff)
Airfare                   $53,368*          $32,338**                            $44,974**
Lodging                     54,432            38,000                               48,608
Meals and
Incidental
Expenses                    23,814            26,550                                21,609
Local
Transportation
Cost                                          $3,600                               $4,312
Total                     $131,614          $100,488                             $119,503

Potential savings                                         $31,126                  $12,111
*Actual airfare paid for contest travelers.
** Historical GSA “City Pair” airfares.

In total, we estimate MSHA may have saved $113,629 ($26,078+$56,425+$31,126) in
travel costs by selecting Dallas, TX, instead of Reno, NV.




                                                    MSHA Should Reassess Its Role in MRCs
                                              22              Report No. 05-13-004-06-001
             U. S. Department of Labor – Office of Inspector General




Appendices




                          MSHA Should Reassess Its Role in MRCs
                   23               Report No. 05-13-004-06-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      MSHA Should Reassess Its Role in MRCs
               24               Report No. 05-13-004-06-001
                                                U. S. Department of Labor – Office of Inspector General


                                                                                         Appendix A
Background

The Federal Mine Safety and Health Act of 1977 (Mine Act), as amended by the Mine
Improvement and New Emergency Response (MINER) Act of 2006, governs the Mine
Safety and Health Administration (MSHA). MSHA is responsible for enforcing Federal
laws and regulations and implementing policies intended to protect the safety and
health of the nation’s miners. MSHA pursues its mission by: reducing hazardous
exposures through enforcing compliance with mandatory safety and health standards;
promoting effective training; encouraging adaptation of new technologies and improved
work practices; and engaging stakeholders in order to promote improved safety and
health conditions.

The federal government has been the primary entity overseeing mine rescue contests
since 1911, when the first mine rescue contest was held by the U.S. Bureau of Mines.
These contests have been the backbone for training and preparing rescue teams to
conduct rescue operations. They are used to both train and test the skill and
competency of the teams, which are made up of volunteers who risk their lives in some
of the most treacherous and life threatening conditions. Rescue team members must be
highly trained to respond to a range of situations, such as rescuing miners who might be
stranded miles underground or stabilizing mines after fires, explosions, or roof
collapses.


MSHA has two major program areas: (1) Coal Mine Safety and Health, and (2) Metal
and Nonmetal Safety and Health (MNM). MSHA and its predecessor agencies, the
Mining Enforcement and Safety Administration and the U.S. Bureau of Mines, have a
decades-old history of participating in mine rescue contests. MSHA conducts biennial
mine rescue contests for each major program area in alternating years. Coal mine
rescue teams are required 20 to participate in two “local” mine rescue contests annually.
Although MSHA is not required to organize mine rescue contests, it elected to organize
national biennial coal and metal/nonmetal contests. MSHA held its five most recent
MNM contests in Reno, NV, and had planned to hold the 2012 contest there before it
decided to cancel the contest for that year. These contests serve as a training tool to
improve the skills required to respond to a mine emergency and strengthen cooperation
between mining companies, equipment manufacturers, and federal and state agencies
to enhance mine rescue preparedness. The mining industry sent 34, 37, and 38 mine
rescue teams to the 2006, 2008, and 2010 MNM contests, respectively. MSHA
publishes the National Contest Rule Book which establishes procedures and rules to
guide the rescue teams in actual situations.

MSHA’s Directorate of Administration and Management plans and directs all MSHA
administrative and management services. This directorate serves as MSHA’s authority
on financial and human resource requirements, overseeing MSHA’s budget process,

20
     30 U.S.C. § 825; 30 C.F.R. § 49.20(a)(2)
                                                             MSHA Should Reassess Its Role in MRCs
                                                      25               Report No. 05-13-004-06-001
                                             U. S. Department of Labor – Office of Inspector General


directing human resource development programs, and managing all property
management, acquisition, contractual, and grant-related transactions. MSHA organized,
planned, and entered into contracts for the 2006, 2008, and 2010 MNM contests and
the planned 2012 contest.

Wasteful spending related to government conferences has recently received significant
media attention due in part to two Offices of Inspector General (OIG) audit reports – one
from the U.S. General Services Administration (GSA) and the other from the
Department of Justice. We received three complaints regarding MSHA’s MNM contests,
which had allegations similar to the findings from the GSA report. In addition, MSHA
informed the OIG of its use of a non-government bank account to hold coal contest
fees.

On September 28, 2012, we issued a report (No. 05-12-004-06-001) on MSHA’s
planning of the 2012 MNM contest. We found MSHA did not follow proper approval and
contracting procedures, document its fee structure methodology, or fully account for
contest fees and costs. We recommended the Assistant Secretary for Mine Safety and
Health: (1) design and implement controls to ensure all conferences are properly
planned and no commitment of resources is made prior to approval by required officials;
(2) partner with its procurement team from the outset to ensure contracts contain all
appropriate clauses and exclude impermissible clauses; (3) determine contest fees and
properly match fee amounts to expected costs to the Government; (4) review and
approve all expected costs before they are incurred; and (5) account for all funds,
whether derived from contest fees or MSHA funds, expended in connection with
contests.

Coal Contest Fund

The National Executive Committee (NEC) organized the coal contests. The NEC
consisted of a Contest Director appointed by MSHA, industry representatives from each
MSHA district, and the President of the National Mine Rescue Association. 21

In 1985, MSHA created a coal contest fund by entering into an agreement with the
Louisville Convention and Visitors Bureau (LCVB). The LCVB was to collect participant
fees and, subject to MSHA’s approval of specific disbursements, pay contest expenses.
In 1987, MSHA slightly altered the basic structure of its arrangement with LCVB by
directing contest participants to make their checks payable to the LCVB but mail them to
MSHA. MSHA collected the checks and mailed them in bulk to the LCVB, which
deposited them in a LCVB bank account. LCVB continued to account for the funds and
pay expenses as approved by MSHA. Other than changes to the contest location and
the organization designated as the fund holder, this arrangement remained in effect
through the latest contest, which was held in Columbus, OH, in 2011.



21
  The Contest Director was always an MSHA employee and was appointed by MSHA’s Administrator for Coal Mine
Safety and Health. The Contest Director appoints each of the industry representatives.
                                                            MSHA Should Reassess Its Role in MRCs
                                                    26                Report No. 05-13-004-06-001
                                               U. S. Department of Labor – Office of Inspector General


MSHA officials maintained control of the fund by directing how and when to disburse the
contest funds. When a balance remained in the fund, the fund balance was maintained
by the designated fund holder 22 until the next contest or until MSHA directed the funds
be transferred to a new fund holder. The current fund holder is the Nashville Convention
and Visitors Bureau (NCVB) and the current fund balance is approximately $326,308.

The fees charged for and expenses associated with the coal contests varied
considerably over the years. For example, the team fee for the 2007 contest was $6,200
and included 25 lodging nights at the Gaylord Opryland Resort and Convention Center
and a team food voucher. In 2011, the team fee was $3,500 but did not include either
lodging or a food voucher.




22
  The LCVB was the fund holder for the 1985 – 2001 contests, the James A. Holmes Association for the 2003
contest, the LCVB became the fund holder again in for the 2005 contest, the Gaylord Opryland Hotel and Convention
Center for the 2007 contest, and the NCVB became the fund holder for the 2009 and 2011 contests.
                                                               MSHA Should Reassess Its Role in MRCs
                                                       27                Report No. 05-13-004-06-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      MSHA Should Reassess Its Role in MRCs
               28               Report No. 05-13-004-06-001
                                    U. S. Department of Labor – Office of Inspector General



                                                                             Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

We performed our audit work to answer the following questions:

   1. Did MSHA comply with federal laws and regulations and safeguard federal funds
      when providing MNM Mine Rescue Contests in FYs 2006, 2008, 2010, and in
      planning the proposed 2012 contest?

   2. Did MSHA comply with applicable laws and regulations when it charged fees for
      its coal and MNM contests, directed the coal contest funds be deposited in
      non-government accounts, and used the coal and MNM contest funds to pay for
      contest expenditures?

Scope

This report reflects audit work conducted onsite at MSHA’s Headquarters in
Arlington, VA, and MSHA’s Finance Branch in Denver, CO, and remotely with the
Silver Legacy and Peppermill hotels in Reno, NV. Our scope covered MSHA’s
controls when planning and providing the MNM contests in FYs 2006, 2008, 2010,
and 2012. Our scope related to the planning meetings for the 2006 contest was
limited because of the unavailability of documents due to the expiration of record
retention requirements. Also, because MSHA canceled its 2012 contest, our scope
was limited to planning activities for that contest.

We also assessed whether MSHA complied with applicable laws and regulations when
it charged fees at both its MNM and coal contests and then used those fees to pay the
costs of its contests. Our work related to the coal contests fund was limited to an
assessment of narratives, facts, and documents supplied by MSHA and relevant criteria
and guidance. Our review included available information from the inception of the coal
contest fund in 1985 to 2011, the year of the latest contest.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Methodology

To accomplish our audit objectives, we interviewed officials with MSHA and the
Silver Legacy and Peppermill hotels to gain an understanding of how the MNM
                                                 MSHA Should Reassess Its Role in MRCs
                                          29               Report No. 05-13-004-06-001
                                   U. S. Department of Labor – Office of Inspector General


contests were funded, planned, and executed. We also interviewed MSHA officials
to identify and assess internal controls over the planning process, contracting for
goods and services, and approval and documentation of contest expenditures. We
also interviewed MSHA staff who attended the contests to gain a better
understanding of the work they performed at the contests, whether the contests
were properly staffed and whether they witnessed any fraud, waste or abuse during
the conduct of the contests.

For the MNM contests, we reviewed all contracts, letters of agreement, purchase
orders, and invoices to identify the nature and cost of all goods and services
procured, and to ensure that the goods and services were allowable and necessary.
We reconciled the contest funds MSHA received from teams, vendors, and
individual attendees to ensure they matched the funds sent to the hotels to pay for
contest services.

In addition, we reviewed and tested more than $962,000 of expenses related to the
MNM contests to determine if costs were necessary, reasonable, allowable, and
adequately supported. This included travel vouchers for 419 MSHA personnel who
attended the contests and 107 travel vouchers for the 20 planning meetings that
MSHA held for the contests.

We also performed analytical procedures to compare the travel costs between Reno,
NV, Dallas, TX, and Denver, CO. We prepared cost comparisons for the 2006, 2008,
and 2010 MNM contests. Our estimates included comparing actual flight costs from
MSHA travel vouchers with historical GSA contract fare for each MSHA traveler for
which GSA “City Pair” data was available for both Denver and Dallas. We also
calculated lodging, Meals and Incidental Expenses (M&IE), and roundtrip shuttle
fares for each traveler in our population using applicable rates. We assumed 4
nights lodging and 4.5 days of M&IE for each traveler. Finally, we subtracted travel
costs for MSHA employees who worked in Dallas or Denver, as those employees
would not have incurred any travel costs if those sites had been selected.

We also performed an additional analysis regarding the location of the mine rescue
teams to Reno, Dallas, and Denver. We performed this analysis by calculating the
average driving distance between the teams attending each contest and each city in
our analysis.

To determine the reliability and completeness of cost data, we compared lists of
personnel assigned to the contests and who attended awards banquets with
summary travel voucher data. We also conducted numerous interviews and
reviewed contracts and other agreements to ensure that we obtained invoices for all
federal expenses incurred for the contests. Based on these assessments and tests,
we concluded the cost data was sufficiently reliable and complete to use in meeting
our audit objectives.



                                                MSHA Should Reassess Its Role in MRCs
                                         30               Report No. 05-13-004-06-001
                                    U. S. Department of Labor – Office of Inspector General


After we initiated the audit of the MNM mine rescue contests, MSHA officials
voluntarily provided us with information and concerns about its coal contest fund.
Our work related to the coal contest fund was limited to an assessment of a narrative
provided by MSHA that provided relevant history and facts related to the fund from
its inception in 1985 through 2011, the year of the latest coal contest. We also
reviewed available documents related to the fund and the coal contests to assist us
in our understanding of the fund and how MSHA used the fund. Furthermore, we
assessed relevant criteria to determine whether MSHA’s actions related to the fund
violated any laws or regulations.

In planning and performing our audit, we considered MSHA’s internal controls that
were relevant to our audit objectives by obtaining an understanding of those
controls, and assessing control risk for the purposes of achieving our objectives. The
objective of our audit was not to provide assurance on the internal controls.
Therefore, we did not express an opinion on the internal controls as a whole. Our
consideration of MSHA’s internal controls relevant to our audit objectives would not
necessarily disclose all matters that might be reportable conditions. Because of the
inherent limitations on internal controls, noncompliance may nevertheless occur and
not be detected.

Criteria

   •   Title 30, United States Code of Federal Regulations – Part 49, Subpart B – Mine
       Rescue Teams for Underground Coal Mines
   •   Antideficiency Act of 1982 - 31 United States Code, §1341(a)(1)
   •   Federal Mine and Safety Act of 1977
   •   Federal Travel Regulation – Part §301-74, Conference Planning
   •   Federal Travel Regulation – Appendix E to Chapter 301, Suggested Guidance for
       Conference Planning
   •   Federal Acquisition Regulation – Part 5, Publicizing Contract Actions
   •   Federal Acquisition Regulation – Part 6, Competition Requirements
   •   Government Accountability Office, decision B300826, National Institutes of
       Health – Food at Government-Sponsored Conferences, March 3, 2005
   •   Independent Offices Appropriations Act – 31 U.S.C. §9701
   •   Mine Improvement and New Emergency Response Act of 2006
   •   Miscellaneous Receipts Act – 31 U.S.C. §3302(b)
   •   U.S. Department of Justice, Office of Legal Counsel, Volume 30, Applicability of
       the Miscellaneous Receipts Act to the Personal Convenience Fees Paid to a
       Contractor by Attendees at Agency-Sponsored Conferences, November 22, 2006




                                                 MSHA Should Reassess Its Role in MRCs
                                          31               Report No. 05-13-004-06-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      MSHA Should Reassess Its Role in MRCs
               32               Report No. 05-13-004-06-001
                                  U. S. Department of Labor – Office of Inspector General


                                                                           Appendix C
Acronyms and Abbreviations

DOJ             Department of Justice

FAR             Federal Acquisition Regulation

FTR             Federal Travel Regulation

FY              Fiscal Year

GSA             General Services Administration

M&IE            Meals and Incidental Expenses

MNM             Metal/Non Metal

MSHA            Mine Safety and Health Administration

OIG             Office of Inspector General

RSCVA           Reno Sparks Convention and Visitors Authority




                                               MSHA Should Reassess Its Role in MRCs
                                        33               Report No. 05-13-004-06-001
        U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                     MSHA Should Reassess Its Role in MRCs
              34               Report No. 05-13-004-06-001
                              U. S. Department of Labor – Office of Inspector General


                                                                       Appendix D
Interim Report and MSHA Response




                                           MSHA Should Reassess Its Role in MRCs
                                    35               Report No. 05-13-004-06-001
U. S. Department of Labor – Office of Inspector General




             MSHA Should Reassess Its Role in MRCs
      36               Report No. 05-13-004-06-001
U. S. Department of Labor – Office of Inspector General




             MSHA Should Reassess Its Role in MRCs
      38               Report No. 05-13-004-06-001
U. S. Department of Labor – Office of Inspector General




             MSHA Should Reassess Its Role in MRCs
      39               Report No. 05-13-004-06-001
U. S. Department of Labor – Office of Inspector General




             MSHA Should Reassess Its Role in MRCs
      40               Report No. 05-13-004-06-001
U. S. Department of Labor – Office of Inspector General




             MSHA Should Reassess Its Role in MRCs
      41               Report No. 05-13-004-06-001
U. S. Department of Labor – Office of Inspector General




             MSHA Should Reassess Its Role in MRCs
      42               Report No. 05-13-004-06-001
U. S. Department of Labor – Office of Inspector General




             MSHA Should Reassess Its Role in MRCs
      43               Report No. 05-13-004-06-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      MSHA Should Reassess Its Role in MRCs
               44               Report No. 05-13-004-06-001
                                U. S. Department of Labor – Office of Inspector General



                                                                        Appendix E
MSHA Response to Draft Report




                                             MSHA Should Reassess Its Role in MRCs
                                      45               Report No. 05-13-004-06-001
U. S. Department of Labor – Office of Inspector General




             MSHA Should Reassess Its Role in MRCs
      46               Report No. 05-13-004-06-001
U. S. Department of Labor – Office of Inspector General




             MSHA Should Reassess Its Role in MRCs
      47               Report No. 05-13-004-06-001
U. S. Department of Labor – Office of Inspector General




             MSHA Should Reassess Its Role in MRCs
      48               Report No. 05-13-004-06-001
                                  U. S. Department of Labor – Office of Inspector General



                                                                          Appendix F
Acknowledgements

Key contributors to this report were Nicholas Christopher (Audit Director), Mark
Sanderson (Audit Manager), Cory Grode (AIC), Aaron Talbert, Richard Bryan, and Mary
Lou Casazza.




                                               MSHA Should Reassess Its Role in MRCs
                                        49               Report No. 05-13-004-06-001
        U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                     MSHA Should Reassess Its Role in MRCs
              50               Report No. 05-13-004-06-001
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:      http://www.oig.dol.gov/hotlineform.htm
Email:       hotline@oig.dol.gov

Telephone:   1-800-347-3756
             202-693-6999

Fax:         202-693-7020

Address:     Office of Inspector General
             U.S. Department of Labor
             200 Constitution Avenue, N.W.
             Room S-5506
             Washington, D.C. 20210
